                               U.S. DEPARTMENT OF ENERGY
                              OFFICE OF INSPECTOR GENERAL




                   REPORT ON MATTERS IDENTIFIED AT THE
                        OAKLAND OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS




The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following addresses:


            U.S. Department of Energy Management and Administration Home Page
                                  http://www.hr.doe.gov/ig
                                             or
                                   http://www.ma.doe.gov

                 Your comments would be appreciated and can be provided on the
        Customer Response Form attached to the report. This report can be obtained from the:

                                   U.S. Department of Energy
                          Office of Scientific and Technical Information
                                           P.O. Box 62
                                  Oak Ridge, Tennessee 37831




Report Number: WR-FS-99-04                                      Western Regional Audit Office
Date of Issue: May 17, 1999                                     Albuquerque, New Mexico 87185
                  REPORT ON MATTERS IDENTIFIED AT THE
                       OAKLAND OPERATIONS OFFICE
             DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
           CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS


                                 TABLE OF CONTENTS

                                                                                         Page

           SUMMARY… … … … … … … … … … … … … … ..… … … .… … … … … … … … …                  1

PART I -   APPROACH AND OVERVIEW… … … … ..… … … … .… … … … … … … … … …                    2

           Introduction… … … … … … ..… … … … … … … … … … … … … … … … … … … … .            2

           Scope and Methodology… … … … … … … … … … … … … … … … … … … … … ....            2

           Observations… … … … … … … … … … … … … … … … … … … … … … … … … ..… .            3

PART II - AUDIT RESULTS… … … … … … … … … … … … … … … … … … … … … … … .…                   4

           Computer Network Security… … … … … … … … … … … … … … … … … … … .… .            4

PART III - STATUS OF PRIOR YEAR OPEN FINDINGS AND RECOMMENDATIONS                         5

           Collection of Accounts Receivable from Other Federal Agencies… … … .… ..… .    5
                            U.S. DEPARTMENT OF ENERGY
                            OFFICE OF INSPECTOR GENERAL
                              OFFICE OF AUDIT SERVICES
                           WESTERN REGIONAL AUDIT OFFICE


                   REPORT ON MATTERS IDENTIFIED AT THE
                        OAKLAND OPERATIONS OFFICE
              DURING THE AUDIT OF THE DEPARTMENT OF ENERGY'S
            CONSOLIDATED FISCAL YEAR 1998 FINANCIAL STATEMENTS


Audit Report Number: WR-FS-99-04

                                           SUMMARY

       The Government Management Reform Act of 1994 requires that the Department of
Energy (DOE) annually submit audited financial statements to the Office of Management and
Budget (OMB). A DOE-wide audit was conducted to determine whether there was reasonable
assurance that DOE's consolidated Fiscal Year (FY) 1998 financial statements were free of
material misstatements. We conducted a portion of the DOE-wide audit at the Oakland
Operations Office (Oakland) and its management and operating contractors.

        The audit at Oakland and its contractors disclosed deficiencies in computer network
security. In addition, Oakland had not completed corrective actions on a prior finding related to
delinquent federal receivables.

      We recommended that improvements be made to computer network security.
Management agreed with the finding and recommendations and initiated corrective actions.



                                                      _____(Signed)__________
                                                      Office of Inspector General
                                               PART I

                                  APPROACH AND OVERVIEW

INTRODUCTION

       The Government Management Reform Act of 1994 requires that audited financial
statements covering all accounts and associated activities of DOE be submitted annually to
OMB. A DOE-wide audit of the consolidated FY 1998 financial statements was conducted by
examining internal controls, assessing compliance with laws and regulations, evaluating
accounting transaction cycles, and testing selected account balances at various DOE facilities.

        The objective of the DOE-wide audit was to determine whether the DOE consolidated
financial statements presented fairly, in all material respects, the financial position of DOE as of
September 30, 1998 and 1997, and its consolidated net cost, changes in net position, budgetary
resources, financing activities, and custodial activities for the fiscal years then ended in
conformity with federal accounting standards. DOE-wide issues are addressed in Audit Report
No. DOE/IG-FS-99-01, issued on February 25, 1999.

        The purpose of this report is to inform Oakland management of matters that came to the
attention of the Office of Inspector General (OIG) during the audit of Oakland and its contractors.
Oakland is responsible for the account balances entered into DOE's core accounting system.

SCOPE AND METHODOLOGY

        The audit was conducted from April 1998 through January 1999 at the Oakland
Operations Office, Oakland, California; Lawrence Livermore National Laboratory, Livermore,
California; and Lawrence Berkeley National Laboratory, Berkeley, California. Specifically, we
examined internal controls, assessed compliance with applicable laws and regulations, and
selectively tested account balances reported to DOE Headquarters as necessary to achieve DOE-
wide audit objectives.

         The audit was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general and application control environment of certain financial systems and evaluated the
reliability of the data on a test basis.

        Because the audit was limited, it would not necessarily disclose all of the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system of
internal controls, errors or irregularities may nevertheless occur and not be detected. The issues
addressed in this report represent our observations of activities through the end of fieldwork on
January 5, 1999. Projection of any evaluation of the internal controls to future periods is subject
to the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

                                                  2
         In addition to the audit work conducted by the OIG, internal audit personnel and an
independent public accounting firm reviewed certain cycles. Lawrence Livermore National
Laboratory (Livermore) internal audit personnel reviewed the Payroll Cycle and reported the
results to its own management in a separate report. There were no findings issued as a result of
the payroll review. An independent accounting firm reviewed the Overview, Disbursements,
Financing and Revenue, and Pension and Other Post-Retirement Liabilities cycles. The
accounting firm also evaluated computer network security at Oakland and Lawrence Berkeley
National Laboratory (Berkeley).

       The OIG considered all findings, generated as a result of these reviews, when preparing
the DOE-wide report and the management report referred to in that report. The OIG is
addressing issues requiring local management's attention in this report. Oakland management
waived the exit conference.

OBSERVATIONS

        We observed internal control deficiencies in computer network security at Oakland and
Berkeley. We recommended that Oakland take immediate action to strengthen computer
network security at both locations. Management concurred with the recommendations and took
corrective actions. Oakland had not completed corrective actions on one finding contained in the
prior year's report.

      Part II of this report provides additional details concerning the audit results and
management's comments. Part III provides the status of a prior year open finding and
recommendations.




                                                 3
                                            PART II

                                       AUDIT RESULTS

Computer Network Security

       Federal and DOE directives require that procedures be developed and implemented to
prevent misuse and abuse of unclassified computer resources. Included are access controls, such
as passwords and user identifications, to limit or detect access to computer programs, data,
equipment, and facilities. However, Oakland controls were insufficient to limit access to
computing resources and to detect unauthorized access. At Berkeley, there were weaknesses in
monitoring computer security and correcting identified weaknesses. As a result, computer
networks and components at both locations were vulnerable to unauthorized access, modification,
and loss or disclosure of data.

Recommendations

       We recommend that:

       1. Oakland take immediate action to strengthen its computer network security; and,

       2. The Oakland Manager direct Berkeley to strengthen its computer network security.

Management Comments

        Oakland agreed with both recommendations and stated that it had completed corrective
actions to its system. Oakland also stated that Berkeley would complete its corrective actions by
August 1999.

Auditor Comments

        The comments provided by Oakland management are responsive to the intent of our
recommendations. We plan to conduct follow-up reviews of management's effort to correct the
conditions described and assess the effectiveness of corrective actions as part of our audit of
DOE's FY 1999 consolidated financial statements.




                                                4
                                            PART III

         STATUS OF PRIOR YEAR OPEN FINDING AND RECOMMENDATIONS

        This section provides the status of an open finding reported in the Report on Matters
Identified at the Oakland Operations Office During the Audit of the Department's Consolidated
Fiscal Year 1997 Financial Statements (Report Number WR-FS-98-05; July 8, 1998). This
finding is still pending resolution or requires further attention.

Collection of Accounts Receivable from Other Federal Agencies

        Oakland had not implemented DOE's debt collection procedures for collecting delinquent
accounts receivable from other federal agencies. We recommended that Oakland (1) request
guidance from the DOE Chief Financial Officer (CFO) on how delinquent receivables should be
referred to the Attorney General and (2) direct Livermore to fully implement the DOE debt
collection strategy. Oakland stated that it would explore alternative collection approaches with
DOE's CFO and work with Livermore.

Status

        Oakland Finance personnel met with Headquarters CFO representatives in December 1998
and reviewed a proposed draft policy paper. The policy paper had not been issued pending
completion of discussions with the Department of Justice. Oakland will advise Livermore of
actions to be taken when guidance is received from the CFO.

        The OIG contacted the DOE CFO's Office of Financial Policy, which stated that
unresolved interagency claims should be referred through the DOE CFO to the Attorney General
for resolution. The CFO agreed to assist Field CFOs in their collection efforts.




                                               5
                                                                    IG Report No. WR-FS-99-04

                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit or inspection would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.


Name_________________________                     Date __________________________

Telephone______________________                   Organization____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                               Department of Energy
                               Washington, D.C. 20585
                               ATTN.: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
